TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                While Renowned for Its Forensic Capabilities,
                    the Digital Evidence Program Faces
                    Challenges and Needs More Controls



                                           April 30, 2008

                              Reference Number: 2008-10-106




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    April 30, 2008


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – While Renowned for Its Forensics Capabilities,
                                 the Digital Evidence Program Faces Challenges and Needs More
                                 Controls (Audit # 200610029)

 This report presents the results of our review of the Field Services computer forensics portion of
 the Criminal Investigation (CI) Division Electronic Crimes Program (E-Crimes).1 The overall
 objective of this review was to determine whether E-Crimes properly controlled the collection
 and timely analysis of digital evidence in support of Internal Revenue Service (IRS) special
 agents. This audit was included in our Fiscal Year 2007 Annual Audit Plan and related to the
 Major Management Challenges of tax compliance initiatives and taxpayer protection and rights.

 Impact on the Taxpayer
 While E-Crimes enjoys an excellent reputation throughout the law enforcement community for
 digital evidence forensics, the absence of some Program-level processing controls has created
 risks that could compromise investigations in worst-case scenarios. As the volume of digital
 evidence significantly increases, the IRS must ensure that it treats this evidence properly and
 consistently to secure its admissibility in court.

 Synopsis
 E-Crimes’ prominence in the investigative process has grown quickly, primarily because
 evidence of financial crimes is increasingly stored on computers, on portable electronic media,
 and at Internet storage facilities. Approximately 100 Computer Investigative Specialist (CIS)


 1
     Appendix IV presents a Glossary of Terms used in the report.
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



agents stationed across all field offices provide technical expertise on digital evidence during the
course of IRS criminal investigations.
We believe that the CIS agents’ reputation for expertise and self-reliance has led E-Crimes to
forgo establishing some common and necessary internal controls. For example, digital evidence
is not backed up offsite, CIS agents are not required to keep a detailed record of their activities
relating to an investigation, and digital or physical evidence in the possession of CIS agents is
not periodically validated.
While our audit objective did not include a detailed assessment of the forward-looking strategies
to maintain and advance the E-Crimes digital evidence program, we identified issues that could
become problematic without management’s attention, as demand for E-Crimes’ services
increases. The continued conversion of experienced special agents to CIS agents could intensify
staff attrition concerns, requiring the CI Division to balance the need to have sufficient human
capital resources to work criminal investigative priorities with the growing need for CIS agents.
In addition, the Division’s initiative to develop a new information technology infrastructure is
considered essential to advancing digital evidence processing capabilities. Although information
technology oversight is in place, the CI Division needs to ensure that non-technological risks are
identified and systemically mitigated and that contingency plans are prepared, in case the new
system does not provide the expected operational benefits or is delayed. Finally, the change to
the supervisory structure for CIS agents will expand the administrative responsibilities of Area
Lead Investigators, which must be considered when determining an effective span of control.
Grand jury secrecy rules precluded our review of whether E-Crimes analyzed digital evidence in
a timely manner or followed appropriate legal provisions when seizing and processing digital
evidence. The CI Division could not provide us with documentation or information relating to
any grand jury investigation, which was the prevalent type of investigation in our audit’s scope.
Without such access, we could not satisfy our responsibility under generally accepted
government auditing standards to obtain sufficient, appropriate audit evidence to provide a
reasonable basis for findings and conclusions in these two areas.

Recommendations
We recommended that the Director, Electronic Crimes, protect digital evidence by
1) implementing a near-term disaster avoidance plan for digital data, 2) developing effective
quality control guidelines and documentation standards for the forensic process, and 3) clarifying
the role of the management information system as an evidence inventory control subject to
periodic validation. In addition, we recommended that the Chief, Criminal Investigation, assess
challenges to maintaining and advancing the digital evidence program by 1) testing the option of
using non-law enforcement positions to benefit the field office role, 2) assigning responsibility to
a task force or project management team regarding development of and contingency
management for non-technological aspects of technology modernization, and 3) continuing to
                                                                                                   2
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



assess the span of control for first-line supervisors as the recently approved direct-line authority
is implemented and experienced.

Response
IRS management agreed with Recommendations 2 through 6 and partially agreed with
Recommendation 1. E-Crimes plans to 1) establish policy directives to require periodic
validation of evidence data through supervisory operational reviews, 2) review its standard
operating procedures annually, and 3) conduct operational reviews to develop quality control and
documentation standards to include in future policy directives. In addition, the CI Division will
monitor, re-evaluate, and adjust the span of control for the newly created direct-line supervisory
positions as needed after standup of the organization. The CI Division will also ensure that
project management teams for the information technology infrastructure project remain in
compliance with the risk management process.
However, the CI Division believes that the information technology infrastructure project is
near-term enough to facilitate the disaster avoidance plan we recommended, dependent on
appropriate funding being available. Therefore, the CI Division does not agree that a distinct,
near-term plan should be implemented prior to the completion of the information technology
infrastructure project. The CI Division will continue to identify roles that can be accommodated
with non-law enforcement personnel at E-Crimes’ centralized support sites. However, the
Division continues to believe that its current model of having experienced agents as CIS agents
is most prudent and does not agree that non-law enforcement personnel can be considered for
field offices. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
In two instances, we do not believe that the CI Division’s corrective actions address the concerns
in our recommendations. The Division plans to begin building data centers for the long-term
data backup solution when funding is available. However, that will be only the start of
implementation, not the completion. Funding for the data centers is scheduled for Fiscal Years
2009 and 2010, but funding for technology initiatives is dependent on the budget and might be at
risk of not being fully approved. Without interim procedures, risks that could materialize from
incidents or disasters will continue to exist over the next 2 years, or longer if the system is
delayed. In addition, if the option of blending non-law enforcement personnel with experienced
agents in the field is not piloted, CI Division management will be missing a valuable opportunity
to maximize resources and minimize the risk of continued conversion of experienced special
agents to CIS agents, thus exacerbating staff attrition concerns.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or

                                                                                                       3
                  While Renowned for Its Forensic Capabilities, the Digital
               Evidence Program Faces Challenges and Needs More Controls



Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                        4
                          While Renowned for Its Forensic Capabilities, the Digital
                       Evidence Program Faces Challenges and Needs More Controls




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Electronic Crimes Program Has Not Established Sufficient
          Controls to Protect Digital Evidence ............................................................Page 4
                    Recommendation 1:........................................................Page 8

                    Recommendations 2 and 3: ..............................................Page 9

          The Electronic Crimes Program Faces Challenges in Maintaining
          and Advancing Its Digital Evidence Program ..............................................Page 9
                    Recommendations 4 and 5: ..............................................Page 14

                    Recommendation 6:........................................................Page 15

          Grand Jury Secrecy Rules Precluded an Effective Review of
          Data Analysis Timeliness or Application of Seizure Provisions ..................Page 15

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Glossary of Terms................................................................Page 22
          Appendix V – Electronic Crimes Program Post-of-Duty Map.....................Page 25
          Appendix VI – Management’s Response to the Draft Report ......................Page 26
              While Renowned for Its Forensic Capabilities, the Digital
           Evidence Program Faces Challenges and Needs More Controls




                          Abbreviations

CI                  Criminal Investigation
CIS                 Computer Investigative Specialist
E-Crimes            Electronic Crimes Program
ECMIS               Electronic Crimes Management Information System
IRS                 Internal Revenue Service
                       While Renowned for Its Forensic Capabilities, the Digital
                    Evidence Program Faces Challenges and Needs More Controls




                                             Background

The Electronic Crimes Program (E-Crimes) provides guidance and resources in securing,
documenting, processing, maintaining, and presenting digital evidence1 in support of
Internal Revenue Service (IRS) criminal investigations. E-Crimes was established as a formal
organizational component in 2001.2 Since then, its role in the Criminal Investigation (CI)
Division’s law enforcement investigative process has expanded beyond digital data forensics at
the field office level to include broad involvement in developing innovative uses of information
technology. At the same time, there has been a large increase in demand for the more traditional
mission of supporting the field office special agents in the collection and analysis of digital
evidence. The digital evidence forensics services were the scope of this review.
The E-Crimes Field Services Program guides the
efforts of approximately 100 special agents             The IRS enjoys an excellent reputation in
designated as computer investigative specialists         the digital evidence forensics area. For
(CIS agents), who are stationed across all                example, in 2004 an industry journalist
CI Division field offices to provide technical          described   the IRS as arguably having the
expertise during the course of investigations.         most  sophisticated   and efficient computer
                                                         forensics teams, which are emulated by
The CIS agents are not the lead IRS case agents                other government agencies.
for criminal investigations. Conceptually, they
can be described as co-agents on a case. The
degree to which digital data exist as a potential source of evidence in a particular investigation
dictates the extent to which one or more CIS agents are involved in an investigation.
CIS agents often extract and secure digital evidence from computers and other data storage
devices when conducting court-approved search warrants at a person’s residence, business, or
other property.3 The CI Division policy for collecting electronic records is to “image”
information from a computer or other data device onto Federal Government digital hard drives
but not to confiscate the electronic devices unless necessary. CIS agents will take possession of
physical components only if they encounter problems accessing the data onsite or if a device
itself is needed as evidence. CIS agent expertise includes using specialized equipment and


1
  Appendix IV presents a Glossary of Terms used in the report.
2
  E-Crimes was structured to integrate previously distinct Criminal Investigation Division programs under a
common mission; establish program authority with a separate budget; and establish Headquarters-level guidance,
policy, and direction.
3
  Not every investigation requires the execution of a search warrant. A person in possession of digital evidence can
voluntarily consent to allow the IRS to search for and collect data. Other ways to obtain digital evidence without
execution of a search warrant include a subpoena or summons, a witness or an informant, or an intercept from the
Internet.
                                                                                                             Page 1
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



techniques to preserve digital evidence and to recover encrypted, password-protected, or hidden
financial data. Normally, CIS agents will analyze the digital data collected and convert extracted
evidence into a useable format for the investigating case agents. The information provided to
case agents can include common word processing and spreadsheet files, database files,
collections of image files, email system content, or even the creation of a virtual workstation that
simulates the specific computer environment as it existed at the time of the data seizure.
Prior to establishment of E-Crimes, expertise and experience in computer technology had
evolved in a decentralized manner, as agents provided technical support for field office
operations. Tactical, day-to-day control of CIS agents remained with the respective local Special
Agents in Charge. This supervisory arrangement continued after E-Crimes began operations.
However, part of the restructuring involved the addition of geographically based Area Lead
Investigators who report to the E-Crimes Headquarters Field Services Program, monitor CIS
agents’ workloads, and provide oversight and functional supervision to ensure proper coverage
within their respective areas for all activities requiring the assistance of an electronic crimes
investigator. A diagram of the posts-of-duty for E-Crimes personnel is presented in Appendix V.
Because initial collection of digital data can require the efforts of several CIS agents working at
the same site or simultaneously at multiple sites, large degrees of coordination and cooperation
are necessary among individual CIS agents in the same vicinity and, at times, on a nationwide
basis. This coordination is a significant part of an Area Lead Investigator’s responsibilities in the
Field Services Program.
E-Crimes’ prominence in the investigative process has grown quickly, primarily because
evidence of financial crimes is increasingly stored on computers, on portable electronic media,
and at Internet storage facilities. E-Crimes estimated that the volume of digital data seized by
CIS agents increased tenfold between Fiscal Years 2001 and 2003, and the upward trend has
continued each year since (see Figure 1). This growth in volume represents hundreds of search
warrants and the contents of thousands of data storage devices seized as evidence. E-Crimes
management considers the increasing volume of digital evidence, which requires the use of
specialized technical resources to support modern criminal investigations, as a major challenge
to the Program.




                                                                                              Page 2
                                             While Renowned for Its Forensic Capabilities, the Digital
                                          Evidence Program Faces Challenges and Needs More Controls



                                            Figure 1: Digital Data Seized Yearly by E-Crimes
              Terabytes of Digital Data


                                          150


                                          100


                                           50


                                            0
                                                    2001         2002         2003         2004         2005         2006
                                                 Estimated                       Fiscal Year

                                                Terabyte is a measurement term for data capacity equal to one trillion bytes.

        Source: Totals calculated by the CI Division E-Crimes management information systems.

We performed this review at the Electronic Crimes Technology and Support Center laboratory
in Springfield, Virginia, and at IRS office locations within the Baltimore, Maryland;
Boston, Massachusetts; and Oakland, California, field offices during the period November 2006
through August 2007. We conducted this performance audit in accordance with generally
accepted government auditing standards. However, due to grand jury secrecy rules, we could not
satisfy the Field Work Standard regarding sufficient, competent, and relevant evidence for some
of our audit sub-objectives. The final section of the report presents an additional explanation of
the scope limitation. Standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. Except for the areas affected by grand jury limitations, we believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                                                                Page 3
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls




                                Results of Review

The Electronic Crimes Program Has Not Established Sufficient
Controls to Protect Digital Evidence
We believe that the CIS agents’ reputation for expertise and self-reliance has led E-Crimes to
forgo establishing some common and necessary internal controls. While CIS agents are
renowned for their processing of digital evidence, the absence of specific Program-level controls
has created risks that could compromise investigations in worst-case scenarios. The ultimate
value of evidence in a criminal investigation is its admissibility in court. The process used by
CIS agents to collect and secure digital data must protect the original image from inadvertent
damage and allow the data analysis results to be authenticated as having come from the exact
data that were initially obtained. Comprehensive internal controls are a means for ensuring that
data are protected.
Since 2005, E-Crimes has used a task force to
                                                        The computer forensics principles that
create and periodically revise standard operating      CIS agents are trained in are the basis for
procedures for the handling of digital evidence.               the processes they follow.
E-Crimes personnel explained that the
procedures were intentionally general enough to
address the basic steps in collecting and processing digital evidence, without restricting the
flexibility needed for each investigation’s circumstances. Because of the experience and
professional training that CIS agents have, E-Crimes management did not believe that they
needed to, or could, dictate in detail how CIS agents should do their jobs. However, we believe
that some procedures do not warrant being designated as discretionary actions and should not be
omitted from the standard operating procedures.

Digital evidence is not backed up offsite
CIS agents were not safeguarding a backup copy of the original evidence at a secure, offsite
location. CIS agents made working copies of the digital data for analysis purposes, reserving the
original images for any forensic authentication purpose that could become necessary to
successfully prosecute the case. Both the original evidence images and the working copies were
routinely stored within or near the CIS agents’ workspaces. CIS agents retain custody of and
safeguard the original digital evidence images from the time they are collected during a search
warrant, or obtained through consent, until the completion of the investigation and any
subsequent judicial actions.



                                                                                            Page 4
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



Disaster avoidance and continuity principles
                                                       Digital images are normally written to and
require that effective data backup procedures           stored on digital hard drives similar to
include moving copies of critical data to an          this example. Multiple images might fit on
offsite location that would not be affected by a       one hard drive, depending on their sizes.
local catastrophic event such as fire, flood,
natural disaster, sprinkler system malfunction,
vandalism, or other intentional destructive acts.
The location of the facility where the original
evidence is stored can also increase the
importance of offsite data backup. During our
interviews, we observed that two of eight CIS
agent workspace locations were below ground
level. The IRS experienced the consequences of
the risk inherent in below-ground facilities when its National Headquarters building was severely
flooded in 2006. Data backup measures help to avoid situations that might otherwise cause loss
of data, significant recovery expenses, decreased prosecution potential, or, ultimately, a loss of
confidence in E-Crimes’ reputation.
E-Crimes management does value the concept of having an effective data storage and archival
system for their Program. As described in a later section of the report, E-Crimes expects to
implement within the next few years an information technology solution that would provide for
dual location storage of digital evidence. However, in the current environment, E-Crimes
management considers offsite backup for all digital images to be cost-prohibitive because the
duplication of images would require additional physical space, equipment, data storage devices,
and staff resources.
However, backup measures do not have to be costly or time-consuming. The most basic offsite
backup process might require only data hard drives, which have become relatively inexpensive,
and shipping postage for transport to another E-Crimes location. Digital hard drives can be
recycled when data are subsequently determined to not warrant backup. In addition, E-Crimes
could consider moving the current original evidence images to an offsite location to avoid the
step of creating an additional copy. We believe that E-Crimes should identify interim procedures
to help minimize or eliminate risks that could materialize from incidents or disasters.

CIS agents are not required to keep a detailed record of their activities relating to
an investigation
While documentation principles are part of computer forensics training, the absence of specific
baseline requirements in E-Crimes’ standard operating procedures has left the methods and
substance for documenting case activity during the course of an investigation to the discretion of
individual CIS agents. The reporting requirement in the standard operating procedures simply
states that CIS agents write memoranda and reports, as necessary, to document activities and to
transmit the results of digital evidence analysis throughout the investigative and judicial
                                                                                            Page 5
                       While Renowned for Its Forensic Capabilities, the Digital
                    Evidence Program Faces Challenges and Needs More Controls



processes. Our interviews revealed a variety of opinions held by CIS agents as to the necessity
for case documentation. Most stated that they did not keep detailed written documentation to
support their analyses or review results.
Several risks are inherent when careful records are not kept. Possible situations include 1) a CIS
agent having to duplicate the analyses if it subsequently becomes necessary to provide detailed
documentation or 2) difficulty in reassigning ongoing work to different CIS agents after analysis
has begun. A practice of preparing reports only when necessary could prove detrimental to the
investigation, with the passage of months or years between a CIS agent’s analysis, recollections
about such, and an eventual referral for prosecution.
E-Crimes must be prepared to help a prosecutor
establish both the admissibility and
persuasiveness of digital evidence. The Justice           The Justice Department concluded “a
                                                          well-documented case is much more
Department National Institute of Justice has              likely to result in a guilty plea, saving
issued a series of guides for law enforcement                valuable prosecutorial and court
agencies that suggest general principles for                            resources.”
handling digital evidence.4 These guidelines are
not mandated or official policy, but they
represent the consensus of a computer forensics working group convened to consider common
situations encountered during the examination of digital evidence. Repeated throughout these
publications is the principal that documentation should be an ongoing process during the forensic
examination. Digital forensics examiners should fully document all actions taken to process
digital evidence and make examination notes available for review, discovery, or testimony
purposes. The guidelines also suggest preparing a written report at the conclusion of an
examination that outlines the process and pertinent data recovered. The rationale for these
suggestions is that the examiner might need to testify about not only the conduct of the
investigation but also the validity of the forensic procedures used.
E-Crimes management considered the responsibility for creating reasonably relevant processing
notes to be inherent in computer forensic principles the CIS agents are trained in. E-Crimes
management did not want to dictate a burdensome degree of documentation and report-writing
requirements throughout an investigation because CIS agents collaborate with case agents as the
theory of investigation evolves and provide additional digital evidence analysis as needed.
Management expects CIS agents to provide for accurate recollection during the course of the
investigation in the form of processing notes of steps taken, automated logs kept in forensic


4
 Publications of the United States Department of Justice, National Institute of Justice: Electronic Crime Scene
Investigation: A Guide for First Responders (July 2001) (www.ojp.usdoj.gov/nij/pubs-sum/187736.htm),
Forensic Examination of Digital Evidence: A Guide for Law Enforcement (April 2004)
(www.ojp.usdoj.gov/nij/pubs-sum/199408.htm), and Digital Evidence in the Courtroom: A Guide for Law
Enforcement and Prosecutors (January 2007) (www.ojp.usdoj.gov/nij/pubs-sum/211314.htm).
                                                                                                            Page 6
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



processing applications, and written transmittals to case agents. Management believes that lack
of adherence to this principle would be a performance issue for supervisors to address.
E-Crimes management stated that the issue involves how to define proper documentation and
what form it should take throughout an investigation. We believe that E-Crimes’ resistance to
specifying those requirements has resulted in an environment in which documentation principles
might not always be followed. For example, several E-Crimes personnel commented that the
possibility of discovery during a trial was a reason for CIS agents to avoid maintaining detailed
notes about their digital evidence processing. The concern was that if processing notes exist that
the defense could review, there could be an opportunity for the defense to challenge the process
in some manner. E-Crimes management agrees that to purposefully not make or retain notes for
that reason is inappropriate and is not the policy of the E-Crimes Program.
We believe that E-Crimes should clearly set forth requirements in its standard operating
procedures to ensure that properly documented case records support CIS agent activity at the
time the analyses are conducted.

Digital or physical evidence in the possession of CIS agents is not periodically
validated
CIS agents input information about digital images and other electronics-related evidence to the
E-Crimes management information system (ECMIS). While the ECMIS, which was launched at
the beginning of Fiscal Year 2006, was designed to provide evidence inventory accounting and
case tracking information, the system has not yet evolved into a complete inventory control to
account for digital data or to record disposition of the data. Inventory control principles require a
periodic and independent validation of the physical condition of the items under control and
reconciliation to inventory records to ensure the accuracy and reliability of the system.
Exceptions identified through inventory controls can include missing and uncontrolled items.
Over the past several years, the CI Division has worked on some of the most notorious financial
crime investigations in history, investigations that arguably contributed to fundamental changes
to our economy and society. We believe that digital hard drives containing confidential and
sensitive information, especially for cases of high national law enforcement priority, would be
valuable items of contraband in the hands of an errant employee. In the worst case, only a single
instance of compromised data in a high-profile investigation could damage the Federal
Government’s reputation and provide a way to mount a defense against criminal charges.
Chain-of-custody principles require CIS agents to maintain the integrity of evidence in its
original condition and to ensure that the evidence is not lost, stolen, or altered in the months or
years between the time obtained and any judicial proceedings. During a seizure action, the IRS
prepares a search warrant inventory list that itemizes everything it has taken, including any
digital images and electronics-related items. These lists are maintained in each investigation’s
case documentation. However, CI Division policy states that seized records and documentary
evidence, including digital images, are not required to be tracked in the main IRS automated
                                                                                              Page 7
                       While Renowned for Its Forensic Capabilities, the Digital
                    Evidence Program Faces Challenges and Needs More Controls



accounting system.5 E-Crimes created the ECMIS to provide its own automated controls over
digital evidence. E-Crimes personnel told us during our interviews that they entered evidence
items in the ECMIS to capture workload attributes such as the location of the data when seized,
the kinds of devices the data came from, and the digital size of the data.
To determine if the ECMIS was capable of tracking the electronic evidence inventory, we
conducted a limited comparison of ECMIS evidence records to digital evidence on hand at the
locations we visited. We were able to verify that 322 evidence items were present with the
assigned CIS agents, as reflected in the ECMIS, and an additional 40 items had been disposed of
or moved to a different location. If accountability for E-Crimes evidence was controlled,
information on the 40 items would need to be updated. We believe that it is feasible for
E-Crimes to use its existing evidence inventory database information for accountability purposes.
This would represent an important control in monitoring the original digital evidence.

Recommendations
Recommendation 1: The Director, Electronic Crimes, should implement a near-term disaster
avoidance plan for digital evidence in the possession of E-Crimes personnel, until a long-term
plan is developed based on future technology advancements.
         Management’s Response: The IRS agreed, in part, with the recommendation. In
         Fiscal Year 2009, E-Crimes plans to transition from the proof-of-concept testing stage to
         the implementation stage of its long-term information technology infrastructure project
         for the safe, efficient, and redundant storage of digital data. The CI Division believes that
         the information technology infrastructure project is near-term enough to facilitate the
         disaster avoidance plan in the recommendation. Implementation of this, or any, solution
         is dependent on appropriate funding.
         Office of Audit Comment: We do not believe that this corrective action addresses the
         concerns stated in our recommendation. The CI Division agreed that digital evidence is
         not backed up offsite but did not agree that a distinct, near-term disaster avoidance plan
         should be implemented prior to completion of the information technology infrastructure
         project. The Division plans to begin building data centers for the long-term solution
         when funding is scheduled to be available at the beginning of Fiscal Year 2009.
         However, that will be only the start of implementation, not the completion. Funding for
         the data centers is scheduled for Fiscal Years 2009 and 2010, but funding for technology
         initiatives is dependent on the budget and might be at risk of not being fully approved.



5
 For financial accounting reasons, seized currency, firearms, and property items that meet a specific minimum
dollar value are required to be subject to systemic tracking. Digital evidence and traditional paper evidence are not
considered to have any dollar value.
                                                                                                              Page 8
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



       Without interim procedures, risks that could materialize from incidents or disasters will
       continue to exist over the next 2 years, or longer if the system is delayed.
Recommendation 2: The Director, Electronic Crimes, should include effective quality
control guidelines and documentation standards in the E-Crimes standard operating procedures
applicable to personnel nationwide.
       Management’s Response: The IRS agreed with the recommendation. In
       March 2008, E-Crimes issued revised standard operating procedures that address
       documentation standards applicable to the seizure and processing of digital evidence.
       E-Crimes plans to review the standard operating procedures annually. In addition, with
       the transition to direct-line management, E-Crimes plans to conduct operational reviews
       to develop quality control and documentation standards to include in future policy
       directives.
Recommendation 3: The Director, Electronic Crimes, should clarify the role of the ECMIS
as an evidence inventory control and require a periodic evidence reconciliation and validation in
the E-Crimes standard operating procedures.
       Management’s Response: The IRS agreed with the recommendation. With the
       recent transition to direct-line management of CIS agents within the Field Services
       Program, E-Crimes plans that one of the areas of focus for supervisors will be periodic
       validation of evidence data through operational reviews. E-Crimes plans to cover the
       requirements for such reviews and other administrative matters through forthcoming
       policy directives.

The Electronic Crimes Program Faces Challenges in Maintaining and
Advancing Its Digital Evidence Program
Our audit objective did not include a detailed assessment of the CI Division’s forward-looking
strategies to maintain and advance the E-Crimes digital evidence program as the demand for
E-Crimes’ services increases. However, we identified three challenges that warrant management
attention before they become problematic:
   •    The continued conversion of experienced special agents to CIS agents could intensify
        staff attrition concerns.
   •    The initiative to develop a new information technology infrastructure is considered
        essential to advancing digital evidence processing capabilities.
   •    The change to the supervisory structure for CIS agents will expand the administrative
        responsibilities of Area Lead Investigators.



                                                                                           Page 9
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



The continued conversion of experienced special agents to CIS agents could
intensify staff attrition concerns
The CI Division selects from its pool of experienced special agents who have demonstrated
information technology skills when filling CIS agent positions. Gaining an experienced agent in
the CIS agent position benefits the E-Crimes program but might represent a detriment to the field
office that loses the experienced special agent from its ranks. The CI Division prefers this
method of in-house staffing as opposed to having technically educated, but non-law enforcement,
personnel perform digital evidence analyses. E-Crimes believes that the CIS agent’s job is not
only to preserve, extract, and analyze the digital evidence but also to know what to look for, what
questions to ask, and how to prepare evidence for a trial. In addition, because they are law
enforcement agents, CIS agents can carry firearms, execute warrants, and perform searches and
seizures.
We agree with E-Crimes’ contention that the law
enforcement background makes experienced                    Selection as a CIS agent dedicates a
special agents likely to be the best possible CIS        special agent to a collaborative support
agents. However, we believe that the accelerated           role and removes him or her from the
growth in the volume of digital evidence in the                   primary case agent role.
investigative process warrants reconsideration of
the alternative of also hiring technologically
educated, but non-law enforcement, personnel to blend with experienced agents and fill some
aspects of the field office CIS agent role. Because of uncertainty as to how high the volume of
digital data seized will rise, how long special agent attrition will exceed hiring authority, and
how successful technological solutions will be in maximizing the use of CIS agent resources, we
believe that the CI Division will have to balance the need to have sufficient human capital
resources to work criminal investigative priorities with the growing need for CIS agents.
Figure 2 shows our estimate that nearly one-half of the CIS agents and Area Lead Investigators
on rolls at the beginning of Calendar Year 2007 will be eligible to retire by the end of 2012,
based on retirement eligibility dates. Under the current selection process, agents selected to
replace retiring CIS agents will be taken from the pool of experienced field office investigative
agents.




                                                                                           Page 10
                                             While Renowned for Its Forensic Capabilities, the Digital
                                          Evidence Program Faces Challenges and Needs More Controls



                                                  Figure 2: Forecast of Retirement Eligibility
              Percentage of 2007 Roster




                                                                                                           49%
                                                                                                40%
                                                                                  30%
                                                        23%          23%
                                           17%


                                           2007        2008          2009         2010          2011       2012
                                                     Cumulative Portion Eligible at End of Calendar Year

         Source: Our comparison of the E-Crimes Personnel Roster (January 2007) to retirement eligibility
         dates in the Department of the Treasury automated personnel system.

Since 2002, overall attrition has exceeded or matched overall hiring in the CI Division due to
budgetary limitations. At the time of our audit, the CI Division anticipated losing about
150 special agents in each of the next 2 years, and it expected to hire only 46 and 48 new agents
in Fiscal Years 2007 and 2008, respectively. The attrition of human capital is a significant
management challenge affecting many parts of the IRS, not just the CI Division. In the past
2 years, we have expressed our concern that the loss of experienced special agents might
adversely affect the overall levels of and improvements in productivity that the CI Division had
been experiencing.6 In this environment, we believe that E-Crimes should determine whether a
deviation from its policy of in-house CIS agent recruiting is warranted, especially over the longer
term. In addition, E-Crimes should contact other digital forensics functions to identify best
practices in staffing and recruiting.

The initiative to develop a new information technology infrastructure is
considered essential to advancing digital evidence processing capabilities
The CI Division has started an initiative to develop a technological solution because it continues
to encounter increasing volumes of digital evidence. To monitor the planning, development, and
implementation milestones of new technology solutions, the CI Division has established an
Information Technology Executive Steering Committee and Governance Process. This Process
provides oversight to the technological aspects of the planned infrastructure, but it is not
designed to focus on how the infrastructure will affect non-technological aspects. The


6
 Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities From Fiscal Year 2000
Through Fiscal Year 2006 (Reference Number 2007-10-083, dated June 6, 2007).
                                                                                                                  Page 11
                      While Renowned for Its Forensic Capabilities, the Digital
                   Evidence Program Faces Challenges and Needs More Controls



Government Accountability Office has issued guidance for agencies to include comprehensive
risk management as a key element when undertaking new projects, including the initiative’s
impact on non-technological elements (people, processes, physical infrastructure).7
The CI Division has obtained funding for its initiative in the IRS Information Technology
Modernization Vision and Strategy for Fiscal Years 2009 and 2010. If prototype testing is
successful, the proposed system will include the buildout of 2 full-scale digital evidence data
centers, estimated at the time of our audit to exceed $3 million each. The data centers will store
and archive digital evidence, perform analysis, and deliver results electronically to case
investigators in field offices nationwide. The system will leverage state-of-the-art information
technology to use available E-Crimes resources to meet the increasing need to exploit digital
evidence in complex financial investigations. The data centers will change the handling of
digital data but not eliminate the need for the cadre of CIS agents in the field office locations to
capture the data at their sources.
As acknowledged in the Modernization Strategy,
the IRS has had some difficulty with its overall
                                                         The IRS should have contingency plans,
information technology modernization. Indeed,           in case the new system does not provide
history shows that Federal Government                       the expected operational benefits.
technology initiatives are prone to various risks
that influence the predictability of the eventual
timeliness or functionality of a project. For other CI Division technology initiatives, task forces
have been created to assist in the projects’ formulation.8 Task force members represented
various levels of the organization: managers, special agents, support positions, and information
technology specialists. At the time of our review, such a task force had not been formed for the
data center initiative. We believe that in addition to the formal IRS information technology
oversight in place, the CI Division needs a task force to ensure that 1) non-technological risks are
identified and systematically mitigated, 2) personnel are prepared for process changes that will
accompany the new system, and 3) contingency plans are prepared, in case the new system does
not provide the expected operational benefits or is delayed. This initiative is a significant
challenge because E-Crimes officials believe that the advancement of digital evidence processing
capabilities is essential to maintaining the CI Division’s ability to conduct effective
investigations as technology advances.



7
  “Key IT System Acquisition Best Practices” identified and reported by the Government Accountability Office:
Information Technology: DOD’s Acquisition Policies and Guidance Need to Incorporate Additional Best Practices
and Controls, Appendix II (GAO-04-722, dated July 2004) or Information Technology: FBI Following a Number of
Key Acquisition Practices on New Case Management System, but Improvements Still Needed, Appendix II
(GAO-07-912, dated July 2007).
8
  The Investigative Data Analytics Project and the Scanning and Document Management Project, as noted in the
Criminal Investigation Business Performance Report (dated March 31, 2007).
                                                                                                    Page 12
                                           While Renowned for Its Forensic Capabilities, the Digital
                                        Evidence Program Faces Challenges and Needs More Controls



The change to the supervisory structure for CIS agents will expand the
administrative responsibilities of Area Lead Investigators
At the time of our audit, E-Crimes was proposing the formal transfer of supervisory
responsibility for the approximately 100 CIS agents from field office managers to a direct line of
authority within E-Crimes. This change in management structure was approved by the Chief, CI,
on October 24, 2007, and will be implemented over the following several months. The rationale
for this proposal was that E-Crimes would manage CIS agent resources better than field office
managers who have had no formal training in computer forensics or the peculiarities of digital
evidence. In addition, the E-Crimes reorganization proposal outlined the need to add one more
Area Lead Investigator position to address the span of control disparity.9 Figure 3 shows that
two of the seven Area Lead Investigator positions had significantly more CIS agents to oversee
than their counterparts.
                                        Figure 3: Span of Control for Area Lead Investigators

                                        25
                 Number of CIS Agents




                                        20
                                                                                           20
                                                                                      18        10-14 Span
                                        15
                                                                                                Suggested in
                                                                    14      14                  the E-Crimes
                                        10                   13                                 Supervision
                                             10     11                                          Proposal

                                         5

                                         0
                                                         Seven Geographic ALI Areas

              Source: E-Crimes Personnel Roster (January 2007). ALI = Area Lead Investigator.

Our interviews with personnel in one of the two high span-of-control areas revealed that the
higher number of agents and larger geographic coverage issues significantly limited detailed
supervisory oversight of the CIS agents. Consequently, the Area Lead Investigator had to rely
on the proficiency of the CIS agents to perform their duties without close supervisory
involvement. E-Crimes personnel advised us that this situation could become even more
challenging as the number of digital evidence seizures continues to rise at an exponential rate,
potentially bringing with it the need for additional CIS agents in the future.



9
 The proposal also establishes a new name and personnel system codes to replace the non-supervisory Area Lead
Investigator positions with expanded supervisory positions.
                                                                                                               Page 13
                    While Renowned for Its Forensic Capabilities, the Digital
                 Evidence Program Faces Challenges and Needs More Controls



Because implementation of direct-line authority between CIS agents and Area Lead Investigators
will create additional administrative responsibilities for Area Lead Investigators as the official
first-line managers, we are concerned that achieving the proper degree of supervisory
involvement will remain a challenge after the management restructuring. We believe that
E-Crimes should conduct an online assessment as the new management structure is implemented
to ensure that the spans of control, both geographically and staffing related, do not jeopardize the
uniform management of the digital forensics program.

Recommendations
Recommendation 4: The Chief, CI, should ensure that E-Crimes tests the option of using
non-law enforcement positions to benefit the digital evidence field office role.
       Management’s Response: The IRS agreed with the recommendation. The
       CI Division believes that non-law enforcement personnel should be considered where
       feasible to support or augment the role of CIS agents in the field locations. However, the
       CI Division is unsure how the recommended option of using non-law enforcement
       positions to benefit the digital evidence field office role can be tested. It has considered
       this option but continues to believe that the current model of having experienced special
       agents as CIS agents is most prudent due to the technological, legal, investigative, and
       financial requirements of the CIS agent position. However, the CI Division will continue
       to identify roles that can be accommodated with non-law enforcement personnel at the
       E-Crimes support center as well as the data centers.
       Office of Audit Comment: We do not believe that this corrective action addresses the
       concerns stated in our recommendation. The CI Division agreed to continue considering
       non-law enforcement personnel for centralized support positions but did not agree that
       non-law enforcement personnel can be considered for positions in field offices to benefit
       the digital evidence role of CIS agents. If the option of blending non-law enforcement
       personnel with experienced agents in the field is not piloted, CI Division management
       will be missing a valuable opportunity to maximize resources and minimize the risk of
       continued conversion of experienced special agents to CIS agents, thus exacerbating staff
       attrition concerns.
Recommendation 5: The Chief, CI, should ensure that E-Crimes specifically assigns to a
task force or project management team the responsibility of having a structured and documented
risk management process for the information technology infrastructure project to address non-
technological aspects and contingency plans.
       Management’s Response: The IRS agreed with the recommendation. The
       CI Division already has in place an information technology project management team as
       well as an internal E-Crimes team composed of management officials, CIS agents, and
       technical experts. The CI Division believes that these teams comply with the risk

                                                                                            Page 14
                       While Renowned for Its Forensic Capabilities, the Digital
                    Evidence Program Faces Challenges and Needs More Controls



        management process that was recommended and will ensure that the teams remain in
        compliance.
Recommendation 6: The Chief, CI, should ensure that E-Crimes continues to assess the
scope of the responsibilities of the revised Area Lead Investigator positions as direct-line
authority is implemented and experienced to determine an effective span of control that
addresses long-term organizational needs.
        Management’s Response: The IRS agreed with the recommendation. The
        CI Division will monitor the issue, re-evaluate the span of control for the newly created
        direct-line management position after standup of the organization, and adjust the span of
        control if needed.

Grand Jury Secrecy Rules Precluded an Effective Review of Data
Analysis Timeliness or Application of Seizure Provisions
Because of grand jury secrecy rules,10 the CI Division could not provide us with documentation
or information relating to grand jury investigations. Without such access, we could not satisfy
our responsibility under generally accepted government auditing standards to obtain and evaluate
sufficient audit evidence to support conclusions as to whether E-Crimes analyzed digital
evidence in a timely manner or followed appropriate legal provisions when seizing and
processing digital evidence. We do not provide any assurances or recommendations in these two
areas.
This grand jury scope limitation is prevalent in our audits of the CI Division. Due to the nature
of non-tax crimes within the CI Division’s jurisdiction, most investigations are conducted jointly
with at least one other Federal Government law enforcement agency and use the grand jury
process to facilitate the investigations. The CI Division’s position, based on advice from the IRS
Office of Chief Counsel, Division Counsel/Associate Chief Counsel (Criminal Tax),11 was that
when the classification of material as grand jury or non-grand jury is in question, the ultimate
decision to release information rests with the attorney for the Federal Government (such as the
United States Attorney’s Office or other pertinent Department of Justice official). We did not
get permission to review supporting documents on grand jury investigations from the applicable
United States Attorney Offices for the IRS field offices we visited.
As a result, the scope of cases subject to our review of supporting documentation consisted of
only 11 non-grand jury investigations (9 were in a single field office, and 6 were assigned to a
single CIS agent), as opposed to our planned audit sample scope of 30 investigations from


10
   Federal Rules of Criminal Procedure, 18 U.S.C. Appendix Rule 6 (2005) state that persons shall not disclose
matters occurring before the grand jury.
11
   A function within the IRS Office of Chief Counsel responsible for providing legal guidance.
                                                                                                          Page 15
                   While Renowned for Its Forensic Capabilities, the Digital
                Evidence Program Faces Challenges and Needs More Controls



3 dispersed field offices. We did not observe anything noteworthy in the case actions when we
reviewed the documentation for the 11 non-grand jury investigations.
The legal provisions applicable to the seizure of digital evidence in criminal investigations are
based on the Fourth Amendment to the United States Constitution and other statutory privacy
laws. CIS agents help to ensure that appropriate legal requirements are met by assisting the
special agents in drafting search warrant applications with proper language to describe computer
hardware, software, peripherals, and data stored within the computers to be seized.
Subsequently, CIS agents must comply with any warrant and local judicial time requirements for
timely review or return of seized media evidence within the scope of the warrant. Even in the
absence of judicial requirements, E-Crimes strives for digital evidence analysis to be completed
within a short period to minimize the elapsed calendar days for an investigation.




                                                                                         Page 16
                       While Renowned for Its Forensic Capabilities, the Digital
                    Evidence Program Faces Challenges and Needs More Controls



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the CI Division E-Crimes1 properly
controlled the collection and timely analysis of digital evidence in support of IRS special agents.
To accomplish this objective, we planned to evaluate internal controls regarding the processing
of digital data obtained by E-Crimes and to review documentation supporting the activity of the
E-Crimes CIS agents during their assignments.
As discussed in the final section of the audit report, grand jury secrecy rules limited the scope of
our review for two sub-objectives in our audit plan. The scope limitation meant that we could
not conduct some planned tests in accordance with the generally accepted government auditing
standard regarding the Field Work Standard for Performance Audits. This Standard relates to
our need to have sufficient audit evidence with which to provide a reasonable basis for findings
and conclusions. Because we could not have access to any documentation of CIS agent activity
on grand jury investigations, we could not conclude whether E-Crimes analyzed digital evidence
in a timely manner or followed appropriate legal provisions when seizing and processing digital
data.
To accomplish the audit objective, we:
I.      Evaluated internal controls relating to digital evidence obtained or seized by CIS agents.
        A. Reviewed the Internal Revenue Manual, the standard operating procedures, and other
           guidance relating to securing and analyzing digital evidence.
        B. Used a copy of the ECMIS2 data as of January 12, 2007, to establish the population of
           digital evidence assignments in which CIS agents were involved during Fiscal
           Year 2006. We considered the reliability of data contained in the ECMIS to be
           undetermined in terms of completeness and accuracy. However, we determined that
           using the data for informational purposes would not weaken our analysis or lead to an
           incorrect or unintentional message.




1
  Appendix IV presents a Glossary of Terms used in the report.
2
  At the time of our audit, E-Crimes considered the ECMIS to still be in pilot status. E-Crimes had only recently
completed a validation effort to gain confidence in the content of the ECMIS, after launching the System subsequent
to the beginning of Fiscal Year 2006.
                                                                                                         Page 17
                      While Renowned for Its Forensic Capabilities, the Digital
                   Evidence Program Faces Challenges and Needs More Controls



        C. Observed the physical environments for digital evidence analysis and storage during
           onsite visits to three selected field offices.3
             1. Judgmentally selected the Baltimore, Maryland; Boston, Massachusetts; and
                Oakland, California, field offices as audit sites, based on ECMIS data that
                indicated high totals for the number of investigations assisted on, number of
                evidence items seized, and volume of digital data seized. We also considered
                whether some of the investigations were potentially non-grand jury investigations
                and ensured that the selected locations were geographically dispersed. At least
                three different CIS agents within each selected field office had been the primary
                CIS agent for several digital analysis investigations during Fiscal Year 2006.
             2. Judgmentally selected for visitation the posts-of-duty for three Area Lead
                Investigators and nine CIS agents, located in eight cities, within the three selected
                field offices. We did not physically visit other CIS agent posts-of-duty within
                those field offices because they were in outlying geographical locations, were
                staffed by less experienced CIS agents, or could not be scheduled during the time
                of our visit.
        D. Interviewed each selected Area Lead Investigator and CIS agent to gain their
           perspectives on various aspects of the digital data forensics environment.
        E. For investigations in which 8 selected CIS agents were the primary CIS agents,
           verified whether 362 evidence items recorded in the ECMIS were accounted for
           properly. The verification process was limited because all investigation names
           relating to grand jury investigations had to be covered from our view. Because we
           could not handle the evidence items ourselves, we had to rely on the CIS agents to
           translate names into case numbers and to orally read evidence label information for
           our use.
II.     Reviewed documentation regarding CIS agent activity on Fiscal Year 2006 assignments.
        A. Reviewed monthly time reports for the period October 2005 through February 2007
           for each CIS agent in the selected field offices to determine the number of hours
           charged to specific investigations, projects, or other time categories.
        B. Reviewed relevant case documentation on non-grand jury investigations assigned to
           the CIS agents visited. Only 11 (12 percent) of the 94 investigations assigned to the


3
 There were 30 field offices designated in the ECMIS at the time of our audit. However, the CI Division was in the
process of consolidating some field offices.




                                                                                                         Page 18
            While Renowned for Its Forensic Capabilities, the Digital
         Evidence Program Faces Challenges and Needs More Controls



   8 CIS agents on the ECMIS were non-grand jury. Of these 11 investigations, 9 were
   in 1 field office and 6 were assigned to 1 CIS agent. We reviewed paper
   documentation from the CIS agents’ case files for the 11 non-grand jury
   investigations to evaluate CIS actions and the timeline of the assignment.
C. Via letters, requested the assistance of three applicable United States Attorney’s
   Offices in determining, for grand jury investigations, whether CI Division documents
   that could be responsive to our audit tests were actually grand jury material.




                                                                                Page 19
                   While Renowned for Its Forensic Capabilities, the Digital
                Evidence Program Faces Challenges and Needs More Controls



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Timothy A. Chriest, Lead Auditor
Joseph P. Smith, Senior Auditor
Ahmed M. Tobaa, Senior Auditor




                                                                                    Page 20
                   While Renowned for Its Forensic Capabilities, the Digital
                Evidence Program Faces Challenges and Needs More Controls



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Technology Operations and Investigative Services, Criminal Investigation SE:CI:TOIS
Deputy Director, Technology Operations and Investigative Services, Criminal Investigation
SE:CI:TOIS
Director, Electronic Crimes, Criminal Investigation SE:CI:TOIS:EC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS




                                                                                     Page 21
                  While Renowned for Its Forensic Capabilities, the Digital
               Evidence Program Faces Challenges and Needs More Controls



                                                                             Appendix IV

                              Glossary of Terms

Term                          Definition
Area Lead Investigator        Reports directly to the E-Crimes Director, Field Services.
                              In direct coordination with the field offices, the Area Lead
                              Investigator provides national program direction, resource
                              allocation, knowledgeable oversight, and functional
                              supervision of CIS agents to ensure timely and quality
                              workload management, completion of assignments,
                              training, and support.
Computer Investigative        An experienced special agent with excellent financial
Specialist (CIS)              investigative skills and knowledge of accounting and legal
                              principles. A CIS agent completes a standardized course of
                              study in computer evidence recovery and analysis. The
                              mission of the CIS agent position is to serve as an
                              investigator who contributes computer expertise to criminal
                              investigations. A CIS agent is a member of his or her
                              respective field office and should be used exclusively for
                              CIS agent assignments.
Criminal Investigation (CI)   Responsible for investigating alleged violations of criminal
Division                      statutes regarding tax administration, which is relatively
                              evident because of the widely known role of the IRS as the
                              nation’s tax collection agency. In addition to working tax
                              evasion cases, IRS agents often work with financial
                              components of other Government agencies to combat
                              money laundering, corporate fraud, terrorism financing,
                              currency reporting violations, narcotics, or other critical
                              national law enforcement priorities.
Digital Data                  Information contained on a digital storage device.
Digital Evidence              Information of investigative value, stored or transmitted in
                              digital form, that may be relied upon in court.




                                                                                       Page 22
                  While Renowned for Its Forensic Capabilities, the Digital
               Evidence Program Faces Challenges and Needs More Controls




Term                        Definition
Discovery                   A legal term for the pretrial process during which each
                            party requests relevant information and documents from
                            the other side, in an attempt to “discover” pertinent facts.
                            Discovery methods include depositions, requests for
                            admissions, document production requests, and requests for
                            inspection.
Electronic Crimes           An electronic case management system designed by
Management Information      E-Crimes specifically to capture workload data related to
System (ECMIS)              the acquisition of digital evidence from whatever source
                            and the processing of that evidence by a CIS agent in
                            support of an investigation.
Electronic Crimes           The post-of-duty for some E-Crimes Headquarters
Technology and Support      management officials and the defacto home location for
Center Laboratory           E-Crimes. Laboratory personnel evaluate, test, and
                            document the effectiveness and validity of computer
                            forensics procedures, techniques, equipment, and software
                            used in the data recovery and analysis processes. The
                            laboratory also develops basic and advanced training
                            programs for CIS agents.
Field Office                Offices within the five CI Division geographical areas
                            throughout the country with boundaries that range from a
                            portion of a single State to inter-State areas. There were
                            30 CI Division field offices at the time of our audit. Each
                            field office has a Special Agent in Charge to direct,
                            monitor, and coordinate the criminal investigation activities
                            within that office’s area of responsibility. Several
                            post-of-duty cities are located within each field office.
Field Services Program      Under the Director, Field Services, supervises the Area
                            Lead Investigators and is responsible for the coordination
                            and direction of E-Crimes Field Operations nationwide.
Forensics                   Involves obtaining and analyzing information for use as
                            evidence in court. Computer forensics involves
                            scientifically analyzing data from digital storage media,
                            including the recovery of data that users have hidden or
                            deleted. Investigators often examine digital data not
                            knowing if the data contain evidence or if any evidence
                            would be incriminating or would disprove an allegation.

                                                                                    Page 23
                While Renowned for Its Forensic Capabilities, the Digital
             Evidence Program Faces Challenges and Needs More Controls




Term                       Definition
Hard Drive                 A sealed box containing rigid platters (disks) coated with a
                           substance capable of storing data magnetically in digital
                           format. One or more hard drives can be present inside the
                           case of a computer and can exist in standalone, external
                           cases attached by cables. A hard drive normally stores
                           information such as computer programs, text, pictures,
                           video, and multimedia files.
Image                      In a data forensics context, a duplicate copy of an entire
                           digital data storage device exactly as it existed in digital
                           form. When a computer file is saved, it actually exists in
                           randomly scattered sectors on the disk rather than in one
                           continuous block. When a file is retrieved, the scattered
                           pieces are reassembled from the disk in the device’s
                           memory and presented as a single file. Imaging copies all
                           the scattered pieces of various files, even fragments of
                           deleted files. In contrast, a file-by-file copy merely creates
                           a copy of reassembled files without including file
                           fragments.
Log Data                   As a generic term, refers to a computer application’s
                           automated recording of user; computer networking; or
                           computer operating activity that might contain software
                           installation and setting information, user registration data,
                           or a running account of a computer process.
Modernization Vision and   A tool to support the fulfillment of the IRS mission and
Strategy                   strategic goals by establishing a 5-year plan that drives
                           information technology investment decisions. The
                           Modernization Strategy issued in October 2006 will guide
                           the investment priorities of the Business Systems
                           Modernization program for Fiscal Years 2007 through
                           2011.
Special Agent              A duly sworn CI Division Federal Government law
                           enforcement officer trained as a financial investigator.




                                                                                      Page 24
        While Renowned for Its Forensic Capabilities, the Digital
     Evidence Program Faces Challenges and Needs More Controls



                                                                         Appendix V

Electronic Crimes Program Post-of-Duty Map




   Source: Diagram by E-Crimes (January 2007). ECP = Electronic Crimes Program.
   SAC = Special Agent in Charge.

                                                                                  Page 25
       While Renowned for Its Forensic Capabilities, the Digital
    Evidence Program Faces Challenges and Needs More Controls



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 26
   While Renowned for Its Forensic Capabilities, the Digital
Evidence Program Faces Challenges and Needs More Controls




                                                       Page 27
   While Renowned for Its Forensic Capabilities, the Digital
Evidence Program Faces Challenges and Needs More Controls




                                                       Page 28
   While Renowned for Its Forensic Capabilities, the Digital
Evidence Program Faces Challenges and Needs More Controls




                                                       Page 29
   While Renowned for Its Forensic Capabilities, the Digital
Evidence Program Faces Challenges and Needs More Controls




                                                       Page 30
